No. 20A96
INTHE

~upreme Qtourt of tbe Wniteb ~tates
DANVILLE CHRISTIAN ACADEMY, INC., COMMONWEALTH OF KENTUCKY,
ex rel. ATTORNEYGENERALDANIELCAMERON,

Applicants,
v.

ANDREW BESHEAR, in his official capacity as Governor of Kentucky,

Respondent.
CERTIFICATE OF SERVICE
As required by Supreme Court Rule 29.5, I certify that three copies of the
Motion of 38 United States Senators to File Amici Curiae Brief in Support of
Applicants and three copies of the Brief of 38 United States Senators as Amici Curiae
in Support of Application to Vacate the Sixth Circuit's Stay, in Danville Christian

Academy, Inc. v. Beshear, No. 20A96, were served via next day mail and electronically
on all parties required:
Barry Lee Dunn
KENTUCKY OFFICE OF THE ATTORNEY
GENERAL
700 Capital Avenue, Suite 118
Frankfort, KY 40601
(502) 696-5653
barry.dunn@ky.gov

Amy Denise Cubbage
OFFICE OF THE GOVERNOR,
COMMONWEALTH OF KENTUCKY
700 Capitol Avenue
Frankfort, KY 40601
(502) 564-2611
amy.cubbage@ky.gov

Counsel for Applicants

Counsel for Respondent

I declare under penalty of perjury that the foregoing is true and correct.

Date: December 4, 2020

